                                                          IG-01-008




REVIEW
                               REVIEW OF THE COLLECTION OF
REPORT                     PERSONALLY IDENTIFIABLE INFORMATION
                                    ON NASA’S WEB SITES
                                      February 16, 2001




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for
Auditing at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html .

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at ww.hq.nasa.gov/office/oig/hq/hotline.html#form; or write
to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request,
to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
ww.hq.nasa.gov/office/oig/hq/audits.html .




Acronyms

IP               Internet Protocol
OMB              Office of Management and Budget
PCIE             President's Council on Integrity and Efficiency
W                                                                  February 16, 2001


TO:           AO/Chief Information Officer

FROM:         W/Assistant Inspector General for Auditing

SUBJECT:      Final Report on the Review of Collection of Personally Identifiable
              Information on NASA’s Web Sites
              Assignment Number A0101400
              Report Number IG-01-008


The subject final report is provided for your use and comment. Please refer to the Results
in Brief section for the overall review results. Our evaluation of your responses has been
incorporated into the body of the report. Because management did not agree that certain
corrective actions were needed and did not provide sufficient information to support its
position on other recommendations, we request additional information as described in the
report by March 16, 2001.


If you have questions concerning the report, please contact Mr. Gregory B. Melson,
Director, Information Assurance Audits, at (202) 358-2588, or Mr. Ernest L. Willard,
Program Manager, at (650) 604-2676. We appreciate the courtesies extended to the audit
staff. The final report distribution is in Appendix C.


[original signed by]
Russell A. Rau



Enclosure

cc:
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
                2
bcc:
AIGA Chron
W/B. Melson
   E. Willard
   N. Cipolla
                            NASA Office of Inspector General

IG-01-008                                                                         February 16, 2001
 A0101400

         Review of Collection of Personally Identifiable Information
                           on NASA’s Web Sites

Introduction

Online privacy has emerged as one of the key and most contentious issues surrounding
the continued evolution of the Internet. The World Wide Web requires the collection of
certain data from individuals who visit Web sites in order for the site to operate properly.
However, collection of even the most basic data can be controversial because of the
public’s apprehension about the type of information collected and how it could be used.

Federal agency Web sites are governed by specific laws designed to protect an
individual’s privacy when agencies collect personal information. 1 The laws require that
agencies (1) do not disclose personal information obtained without the individual's
consent, (2) grant access to the individual of his/her own records 2 under certain
circumstances, and (3) provide protection against disclosure and loss of personal
information.

Public Law 106-554 enacted December 16, 2000, requires the NASA Office of Inspector
General to report any activity related to the collection of personal information on
NASA’s publicly accessible Internet Web sites. Specifically, the law requires the
Inspector General to report to the Congress any NASA activity relating to:

         (1) the collection or review of singular data, or the creation of aggregate lists
             that include personally identifiable information, about individuals who
             access any Internet site of the department or agency; and

         (2) entering into agreements with third parties, including other government
             agencies, to collect, review, or obtain aggregate lists or singular data
             containing personally identifiable information relating to any individual’s
             access or viewing habits for governmental and nongovernmental Internet
             sites.

The report is due to the Congress by February 16, 2001.



1
  We interpreted personal information as information that could be tracked to the individual Web site
visitor such as name, street address, e-mail address. Our interpretation was based, in part, on information
from the Office of Management and Budget, the General Accounting Office and congressional staff.
2
  In this case an individual’s own records are those with personal information under the control of any
Federal agency from which information is retrieved by the name of the individual or by some identifying
number, symbol, or other identifying particular assigned to the individual.
The Office of Management and Budget (OMB) has issued additional guidance on Internet
privacy issues directing agencies to post on Federal sites the privacy policies and
guidelines for the collection of personal information.

The objective of our review was to address the Public Law 106-554 reporting
requirement. For our limited review, we tested a sample of 49 publicly accessible NASA
Web sites and reviewed about 600 Web pages3 within those sites. We also obtained
written representation from NASA management regarding third-party agreements to
collect, review, or obtain personal information relating to Web site visitors' access or
viewing habits. Our scope did not include coverage of contractors’ commercial Web
sites that may provide information on NASA programs supported by those contractors.
See Appendix A for details on our objective, scope, and methodology.

Results in Brief

For the 49 publicly accessible Web sites we visited, we found that none collected without
the user’s permission, 4 personally identifiable information from individuals visiting the
Agency’s Web sites. Some of the sites we visited gather Internet Protocol (IP) addresses 5
of visitors for security purposes. IP addresses could aid in identifying a Web site user,
but are not considered personal information. NASA has not entered into third-party
agreements to collect, review, or obtain personally identifiable information relating to an
individual’s access or viewing habits for Internet sites. However, we found three
persistent cookies 6 in use at the sites we visited. While these cookies do not collect or
store personal information, NASA’s use of the cookies and its Privacy Statement 7 are not
in full compliance with Federal policies. Additionally, the management of publicly
accessible Web sites needs improvement. Without improvements in its privacy policies
and practices, NASA cannot ensure adequate protection of the privacy rights of its Web
site visitors.


Background

NASA uses Web-based technology to provide interfaces to a wide variety of resources
and information. NASA employees, NASA contractors, researchers, and the general
public use these resources and information. To service the public, NASA maintains

3
  A Web page is a file on the World Wide Web.
4
  Some NASA sites may ask visitors to voluntarily provide personal information, for example, to respond
to the visitor’s questions or to register for opportunities available at a site.
5
  An IP address is an identifier for a computer or device on an Internet protocol network.
6
  Cookies are text files saved in the browser’s directory or folder. There are two types of cookies -- session
and persistent. A session cookie is automatically deleted when the user’s browser is closed. A persistent
cookie is a small text file placed on a consumer’s computer hard drive by a Web server. The cookie
transmits information back to the server that placed it and, in general, can be read only by that server.
7
  A Privacy Statement contains an agency’s privacy policy. The policy must clearly and concisely inform
visitors to the site what information the agency collects about individuals, why the agency collects it, and
how the agency will use it. Privacy policies must be clearly labeled and easily accessed when someone
visits a Web site.

                                                      2
about 2 million Web pages. The Agency Web sites are among the most visited of all
Government sites. For example, the main Agency site alone received a total of 64.1
million visits during the year 2000. As a result NASA is considered a high-impact8
agency.


NASA Privacy Policies

Finding. Our limited review showed that none of the NASA publicly accessible Web
sites tested were collecting personal information without disclosure to the Web site
visitor. Also, NASA management stated that the Agency had not entered into third-party
agreements to collect, review, or obtain personally identifiable information relating to
any individual’s access or viewing habits for Internet sites, and our review did not
disclose evidence of such third-party agreements.

However, several privacy issues require management’s attention. The persistent cookies
we found on NASA’s Web sites were not in full compliance with related OMB policies.
Also, NASA’s Privacy Statement does not contain all the OMB-required elements, and
improvements are needed on the management of publicly accessible Web sites. Without
improvements in its privacy policies and practices, NASA cannot ensure adequate
protection of the privacy rights of its Web site visitors.


Use of Persistent Cookies

NASA’s publicly accessible Web sites use of persistent cookies is not in compliance with
OMB policies. OMB Memorandum M-99-18, “Privacy Policies on Federal Web Sites,”
dated June 2, 1999, provides guidance on Internet privacy issues, directing agencies to
post on principal Federal Web sites 9 the privacy policies that disclose the information
being collected, why it is collected, and how it will be used. Additionally, OMB
Memorandum M-00-13, “Privacy Policies and Data Collection on Federal Web Sites,”
issued June 22, 2000, provides guidance concerning data collection on Federal Web sites
using Web technology that can track the activities of users over time and across different
Web sites. One of the most commonly used Web-based technologies to store personal
information without the user’s consent is the persistent cookie. OMB policy states that
persistent cookies should not be used unless there is a clear and conspicuous notice, a
compelling need to gather the data on the site, appropriate and publicly disclosed
safeguards for handling information derived from cookies, and approval by the head of
the agency. The guidelines are applicable even if the persistent cookie does not contain
personally identifiable information.


8
  According to the National Partnership for Reinventing Government, high-impact agencies handle 90
percent of the Federal Government’s contact with the public.
9
  Principal Web sites are Internet sites designed as the major entry point for the Agency sites. These
include the Agency’s home page and any Web page that receives a high number of visits.

                                                     3
We reviewed a total of 49 principal Web sites during January 2001. We selected 28 sites
from NASA’s most active and visible publicly accessible Web sites list. Additionally,
we searched the Internet and judgmentally selected and tested a total of 20 public access
Web sites for Kennedy Space Center and Ames Research Center. We also tested the
Office of Inspector General Web site. We visited about 600 Web pages related to the 49
principal Web sites visited. We tested all the sites to determine whether the sites (1)
collected any personally identifiable information and (2) posted a Privacy Statement
consistent with OMB privacy guidelines. Three NASA sites we reviewed contained
persistent cookies. We requested written assurances from NASA management about
whether use of the persistent cookies complied with the OMB requirements. In response
to our review, management disabled one of the three persistent cookies. In all three
cases, the cookies did not contain personally identifiable information. However, none of
the persistent cookies we identified fully complied with the OMB requirements. For
example, no clear and conspicuous notice of their use was given, and the NASA
Administrator had not approved the use of any of the cookies. In one case, management
stated that NASA should pursue a waiver from the OMB requirements for persistent
cookies that do not store any personally identifiable information. Management’s written
responses did not indicate why the persistent cookies were not in compliance with OMB
policies.

Third-Party Agreements

NASA management provided written assurance to the Office of Inspector General that it
has no third-party agreements to collect, review, or obtain personally identifiable
information relating to an individual’s access or viewing habits for Internet sites. Also,
we found no third-party persistent cookies at any of the sites visited during our review.

However, one Center’s main Web site contains a link to its Visitor Complex where
tickets for visitor attractions may be purchased. This link is to a commercial domain 10
site operated by a NASA contractor. This site contains further links providing
information for visitors who are interested in purchasing tickets. Ultimately, a form is
displayed requesting the personal information (name, address, etc.) necessary to complete
a ticket purchase.

The site where the purchase form is located is in the domain of yet another commercial
entity. This site is a commercial Web site with a privacy policy, which states that the
NASA contractor will not sell the personal/credit information to any third party.
However, the policy states that the contractor reserves the right to sell, trade, or rent the
user’s email address.




10
  A commercial domain is a group of computers and devices on a network that are administered as a unit
with common rules and procedures. Within the Internet, domains are defined by their IP address. All
devices sharing a common part of the IP address are said to be in the same domain (for example, the
nasa.gov domain).

                                                   4
There is no warning to the visitor when he or she departs the NASA domain and enters
the series of commercial (.com) sites. 11 Further, each of these commercial domain pages
has the NASA Center's name prominently displayed at the top of the page and generally
resembles the NASA Center site in appearance. Accordingly, the NASA visitor may not
realize that he or she has left the NASA Web site and is now providing detailed personal
information to an entity other than NASA. NASA’s Web sites should clearly indicate to
users when they are about to leave an Agency Web site to link to an outside site.

NASA’s Web Site Privacy Statement and OMB Policies

NASA’s Web site Privacy Statement does not fully implement OMB policies regarding
Internet privacy. OMB Memorandums M-99-18 and M-00-13 require every Federal Web
site to include links to the agency’s privacy policy statement. NASA’s policy also
requires links to the NASA Privacy Statement. However, during our test, we noticed
several sites that did not include a link to the NASA Privacy Statement.

OMB policy states that each Privacy Statement must clearly inform Web site visitors as
to what information the agency collects about individuals, why the agency collects it,
how the agency will use it, and give clear and conspicuous notice if cookies are used.
NASA’s Privacy Statement does not address how the Agency will use an individual’s
information. For example, the Privacy Statement provides no assurance that no further
use, other than the one intended or as necessary for security reasons, will be made of
information visitors provide on NASA’s Web sites. Also, the statement does not address
the use of cookies and does not specifically inform visitors that NASA is not responsible
for the collection practices of the links it provides on its Web sites. However, some of
the Centers’ sites used modified versions of the NASA Privacy Statement that more fully
comply with OMB policies. For example, the Privacy Statement at the NASA KIDS
Web site 12 defines cookies and explains NASA's policy on using cookies. This Privacy
Statement also discusses reasons for gathering IP addresses of site visitors. Also, the
Kennedy Space Center Privacy Statement 13 more clearly discusses use of personally
identifiable information. NASA should revise its Agencywide Privacy Statement to
ensure consistency and compliance with OMB privacy policies.




11
   An example of such a warning message can be found at the Marshall Space Flight Center (Marshall),
Web site. Prior to departing the site where a link to an external domain has been provided, this message
appears:
    You are now leaving the Inside Marshall Web site. Inside Marshall provides a link to this
    external Web page because it may contain related information of interest to you. This link
    does not constitute an endorsement by MSFC [Marshall] of any information, products or
    services on this external Web site. You can return to Inside Marshall by using the Back
    button on your Web browser.
12
   The NASA KIDS Web site is at http://kids.msfc.nasa.gov/Privacy.html.
13
   The Kennedy Web site is at http://www-pao.ksc.nasa.gov/kscpao/home/privacy.html.

                                                     5
Management of Publicly Accessible Web Sites

NASA does not require the maintenance of a consolidated Agencywide inventory of
NASA’s publicly accessible Web sites. Therefore, we were not able to reliably
determine how many public sites are available, ownership of the sites, or whether the
sites are in compliance with NASA’s policies. We inquired about the process to approve
and establish Web sites on NASA’s servers. NASA’s guidelines require supervisory
approval authorizing release of information to the public. However, each Center decides
how to manage and control the publicly accessible Web sites, which can result in
inconsistent approaches. Also, one Webmaster14 indicated that the establishment of a
public Web site could occur without supervisory approval. 15 NASA is considered a high-
impact agency. For example, the main Agency site alone received a total of 64.1 million
visits during the year 2000. NASA’s popularity increases the importance of a consistent
approach regarding control and management of Web sites available to the public. NASA
has not assessed whether all publicly accessible Web sites are in compliance with
applicable Federal privacy laws and policies. The Agency is in the process of modifying
information technology policies to provide more guidance on Internet issues. These
policies should require the establishment of a process to periodically assess whether
NASA Web sites comply with applicable Federal privacy laws and policies.


Recommendations, Management’s Response, and Evaluation of
Response

The NASA Chief Information Officer should:

1. Establish NASA policies regarding the use of persistent cookies as required by
   OMB policies.

Management’s Response. Concur. Management responded that NASA has adopted
OMB policy as the Agency’s policy, which it has issued to all NASA Centers.
Management will continue to assess the need for additional Agency policies. The
complete text of management's response is in Appendix B.

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. NASA does not have a policy specifically addressing the use of
persistent cookies at the Agency’s public Web sites. As discussed in the finding section
of the report, during our testing of NASA’s public sites we found persistent cookies that
were not in compliance with OMB policies. For example, we found no evidence that the
Agency had approved the use of persistent cookies. Accordingly, we request that


14
  A Webmaster is the individual managing a Web site.
15
  NASA Procedures and Guidelines 2800.1, “Managing Information Technology,” states that “Supervisory
approval authorizing release of information to the public must be obtained in accordance with NASA's
 policies. The local NASA Office of Public Affairs should be consulted to determine what authorization is
needed.”

                                                   6
management reconsider its position and provide additional comments in response to the
final report. The recommendation remains unresolved and undispositioned.


2. Establish procedures to monitor the use of persistent cookies to ensure
   compliance with OMB policies.

Management’s Response. Nonconcur. Management stated that the Centers are
responsible to ensure that Agency policy is being followed. Further, monitoring about 2
million Web pages would not be cost-effective (see Appendix B).

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. System scanning tools are available that Webmasters can use to
readily identify cookies on their Web sites. Also, according to NASA policy, supervisory
approval is required before establishing a publicly accessible Web site. Without
procedures and tools to monitor the use of persistent cookies, NASA cannot ensure
compliance with OMB policies. We request that management reconsider its position and
provide additional comments in response to the final report. The recommendation
remains unresolved and undispositioned.


3. Implement Web-based measures to provide clear and conspicuous message
    warnings to users when leaving the Agency’s sites. The message should disclaim
    NASA’s endorsements of the sites and should advise the user that NASA is not
    responsible for any collection of personal information that may occur at Web
    sites outside of its domain.

Management’s Response. Concur. Management stated that current policy requires that
a disclaimer be displayed when a NASA site links to external sites. The disclaimer may
appear on the pages listing external links or through an intermediate “exit notice” page
generated by the server. The Centers are responsible for policy implementation.
Management will continue to assess the need for additional Agency policies and
procedures (see Appendix B).

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. During our testing of Agency Web sites, we found links to
commercial sites that looked very similar to Agency sites. No warning was displayed at
the point of departure to the commercial sites. In this case, the requirement to provide
clear and conspicuous warnings was not met. We request that management provide
additional comments in response to the final report. The recommendation remains
unresolved and undispositioned.


4. Revise the NASA Web site Privacy Statement to:




                                            7
        •   Address the use of cookies, and give a clear and conspicuous notice
            immediately prior to placing a persistent cookie on the user’s computer.

        •   Address the collection of IP addresses by stating any reasons for
            collecting them and that any use of collected addresses conforms to OMB
            policies.

        •   State that no further use will be made of the information users provide
            on a NASA Web site, except for the intended use and/or as required by
            law or if it is pertinent to judicial or governmental investigations or
            proceedings.

        •   Expand the present disclaimer for links that are not part of the NASA
            Web family, or nasa.gov domain, to state that NASA is not responsible
            for the information collection practices of those sites and that users
            should read any Privacy Satements at those sites.

Management’s Response. Partially concur. Management stated that it will address
possible revisions of the Web Privacy Statement but that it did not agree with the specific
wording in the recommendation (see Appendix B).

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. The wording we recommended is already included in several
NASA Web site Privacy Statements. However, the Privacy Statement displayed at the
Agency’s main site did not include any of the elements in our recommendation. We
request that management provide additional information on how possible revisions for
the Privacy Statement will be addressed. The recommendation remains unresolved and
undispositioned.


5. Establish and maintain a consolidated inventory of the Agency’s publicly
   accessible Web sites.

Management’s Response. Nonconcur. Management does not believe it is practical or
cost-effective for the NASA CIO to establish or maintain an inventory of sites. Further,
the recommendation appears to be outside the scope of the review requested by Congress.
However, NASA is looking at alternative approaches to manage the Agency’s public
Web pages (see Appendix B).

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. Without an inventory of its Web sites, the Agency cannot
determine whether the sites are in compliance with NASA’s policies. We request
additional information on the alternative approaches planned for managing the Agency’s
public Web sites and that management reconsider its position in response to the final
report. The recommendation remains unresolved and undispositioned.


                                             8
6. Emphasize NASA-wide procedures to establish and maintain publicly accessible
   Web sites, and implement them consistently throughout the Agency.

Management’s Response. Partially concur. Even though management is looking at
alternative approaches for managing the Agency’s public Web pages, management does
not agree that this process will necessarily result in the adoption of NASA-wide
procedures (see Appendix B).

Evaluation of Management’s Response. Management’s comments are not responsive
to the recommendation. We believe that without Agencywide procedures, the Centers’
approaches for managing and controlling their public Web sites could vary significantly
and result in inconsistent implementation of policy. We request that management
reconsider its position and provide additional comments in response to the final report.
The recommendation remains unresolved and undispositioned.




                                            9
              Appendix A. Objectives, Scope, and Methodology

Objective

The objective of this review was to address the reporting requirement established by
Public Law 106-554. The law requires that the Inspector General report to the Congress
any NASA activity relating to the collection of personally identifiable information by the
Agency at its publicly accessible Web sites and any third party agreements made by the
Agency, including those with other governmental agencies, to collect, review, or obtain
personally identifiable information through the Internet.

Scope and Methodology

Using Office of Management Budget (OMB) policy regarding Federal Web site privacy
and data collection and guidance provided by the President's Council on Integrity and
Efficiency (PCIE), we interpreted the congressional reporting requirement to be primarily
concerned with personally identifiable information collected from Agency Web sites
without disclosure to the site visitor. The persistent cookie is a principal technology for
storing information about Web site visitors. Our review methodology was consistent
with an approach for reviewing use of cookies by Federal Web sites that the General
Accounting Office recommended to the PCIE on February 2, 2001. In performing the
review, we obtained a list of NASA’s most active and visible publicly accessible Web
sites. We did not review the methodology NASA used in identifying the most visited
sites. The list contained 54 of the most visited public sites; we judgmentally selected 28
sites for testing. Additionally, we searched the Internet and judgmentally selected and
tested a total of 20 public access Web sites for Kennedy Space Center (Kennedy) and
Ames Research Center (Ames). The additional sites at Kennedy and Ames were not ones
that were on NASA's list of most visited sites. We also tested the Office of Inspector
General Web site during our review. We visited about 15 pages for each Web site to
determine whether persistent cookies were in use. We tested a total of 49 Web sites and
viewed about 600 Web pages associated with these sites. We were unable to determine
the total universe of NASA Web sites or pages because NASA management did not have
reliable information available. We tested all the sites for use of persistent cookies and for
compliance with OMB Web site privacy policies as prescribed in OMB Memorandum
M-00-13, issued June 22, 2000. We did not review for the use of other information
collection devices.

For sites in which persistent cookies were found, we inquired about whether the cookie
contained personally identifiable information. Also, we inquired about NASA’s use of
cookies in accordance with OMB policies.

We obtained management’s written representation concerning any third-party agreements
to collect, review, or obtain aggregate lists or singular data containing personally
identifiable information related to an individual’s access or viewing habits for Web sites.



                                             10
                                                                            Appendix A

Although we reviewed NASA’s policies and tested numerous NASA Web sites operated
by contractors, our scope did not include coverage of contractors’ commercial Web sites
(.com) that may provide information on NASA programs supported by those contractors.
Policy and procedures in this area will be the subject of a future audit.

We reviewed policy for the NASA Privacy Statement to determine whether the policy
was consistent with OMB guidelines.

Follow-up work for some issues identified during our review will be included in the
Office of Inspector General FY 2002 Audit Plan.

Review Field Work

We performed the field work for this review during January and February 2001.




                                           11
Appendix B. Management’s Response




               12
     Appendix B




13
Appendix B




             14
                       Appendix C. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Acting Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Acting Associate Administrator for Policy and Plans


NASA Centers

Director, Ames Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
 Chief Financial Officer, Goddard Space Flight Center
Director, Langley Research Center
 Chief Financial Officer, Langley Research Center
Director, John F. Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Lyndon B. Johnson Space Center
Director, John C. Stennis Space Center
Director, Jet Propulsion Laboratory
Director, Dryden Flight Research Center
Director, George C. Marshal Space Flight Center




                                          15
Appendix C

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
  Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
  Office of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space


Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics


Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                          16
               NASA Assistant Inspector General for Auditing
                              Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our
customers’ interests, consistent with our statutory responsibility. Could you help us
by completing our reader survey? For your convenience, the questionnaire can be
completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant
Inspector General for Auditing; NASA Headquarters, Code W, Washington, DC
20546-0001.


Report Title: Review of the Collection of Personally Identifiable
              Information on Nasa’s Web Sites

Report Number: IG-01-008                      Report Date: February 16, 2001


Circle the appropriate rating for the following statements.

                                             Strongly                                Strongly
                                              Agree     Agree   Neutral   Disagree   Disagree   N/A
                                                5        4        3          2          1       N/A
1. The report was clear, readable, and
   logically organized.
2. The report was concise and to the            5        4        3          2          1       N/A

   point.
3. We effectively communicated the              5        4        3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient              5        4        3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?
    Excellent           Fair
    Very Good           Poor
    Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                      Media
       NASA Employee                            Public Interest
       Private Citizen                          Other:
       Government:            Federal:            State:          Local:


May we contact you about your comments?

              Yes:______                           No:_____


              Name:___________________________________

Thank you for your cooperation in completing this survey.




                                          18
Major Contributors to This Report

Gregory B. Melson, Program Director, Information Assurance Audits

Ernest L. Willard, Audit Program Manager

Mindy N. Vuong, Auditor

Ines M. Salcedo, Auditor

Keri Roberts, Auditor

Nancy C. Cipolla, Report Process Manager

Patricia C. Reid, Program Assistant




                                           19
